   Network Vu
           Vulnerability
              lnerability Assessment and

                                      nd
           Pe
           Penetration
               netration Testing
                          Testing

                          For



National Archives
         Archiv
         Archives
                es and Records Admin
                               Administration
                               Adminiistration
                                      stration
                    (NARA)




              Under Contract # GS-23F-0135L

               October 18, 2010
                           By
                                                    TABLE OF CONTENTS




                                                                                                                                 PAGE


Transmittal Letter .......................................................................................................................1


Executive Summary ....................................................................................................................2


Objectives, Scope, Methodology.................................................................................................4


Findings and Recommendations .................................................................................................6

a1

Paul Brachfeld
Inspector General
National Archives and Records Administration
8601 Adelphi Road
College Park, MD 20740-6001

Dear Mr. Brachfeld,

We have completed our vulnerability assessment and penetration testing of National Archives
and Records Administration’s (NARA) internal and external network infrastructure and
environment. The purpose of this testing is to assist NARA in the protection of its IT
infrastructure, environment, and digital assets. Our testing results and findings are contained in
the enclosed report.

The report contains sensitive and confidential information. Recipients of this report must not,
under any circumstances, show or release its contents for purposes other than official review. It
must be safeguarded to prevent publication or other improper disclosure of the information it
contains. Distribution of this report should be on a need to know basis.

We appreciate your confidence in us to perform these tasks. Should you require additional
information, please contact George Fallon at 301-931-2050 or George.Fallon@cliftoncpa.com.

Sincerely,

CLIFTON GUNDERSON LLP


a1 
October 18, 2010
Calverton, Maryland




11710 Beltsville Drive, Suite 300 
Calverton, MD  20705­3106 
tel:  301­931­2050 
fax: 301­931­1710 
www.cliftoncpa.com
                                                1
                                                                                h 
    National Archives and Records Administration – Network Vulnerability Assessment and
                        Penetration Testing Report – September 2010


                                  Executive Summary
NARA contracted with Clifton Gunderson, LLP (CG) to perform external and internal network
and penetration testing of the NARA computer network systems in order to assess the chances
that an intruder could intentionally or accidentally gain access to NARA's network or systems.

Our testing focused upon
                   , used to support NARA at


Our assessment included the network mapping of the target systems, scanning of NARA’s
network infrastructure for weaknesses or flaws (i.e. vulnerabilities), which can allow an attacker
to compromise the network by circumventing NARA’s administrative and security controls. We
then attempted to exploit these system vulnerabilities to gain unauthorized access, including the
escalation of system privileges in order to attack other systems within the trusted environment.

We performed these scans from inside and outside of NARA’s firewall to simulate attacks from
an external intruder (zero knowledge), an internal employee, and an individual from a University
Network attached to NARANet.

During our scans, we gathered sensitive information about NARA’s network. We collected
information about NARA’s network servers, workstations, routers and other network devices.
We also analyzed the operating systems versions and patch levels, ports or services running on
NARA’s network devices.

The purpose of this assessment is to assist NARA in the protection of its IT infrastructure,
environment, and digital assets. This assessment will help determine the effectiveness of
NARA’s information systems security in preventing and detecting unauthorized external and
internal access to logical assets, and provides a snapshot evaluation of NARA’s security
posture and potential vulnerabilities that should be remediated. As is the case with a dynamic
environment subject to constant change, any projection of the assessment results to the future
is subject to the risk that because of change, the results may no longer portray the security
posture of the IT infrastructure and environment. Furthermore, the projection of any conclusions,
based on our findings to future periods is subject to the risk that changes made to the IT
infrastructure and environment may alter the validity of such conclusions.

We identified several improvements to be made to the configuration, upgrade and patch
management processes of various external and internal facing networks and infrastructure
devices. Scan results are categorized by severity ratings as either “Critical,” “High,” Medium” or
“Low.” A “critical” or “high” vulnerability is likely if exploited to provide complete remote access to
the target system. A “medium” vulnerability generally provides network access if located on the
same subnet. A “low” vulnerability requires physical access to the system or requires a
command prompt to the system to exploit.

In summary, as a result of our external scan analysis, we noted 333 vulnerability instances
comprised of (5) Critical, (72) High, (224) Medium and (32) Low risk, some of which could be
exploited by an intruder to intentionally or accidentally gain access to NARA's network or
systems. Details are graphically portrayed below:


SENSITIVE/FOR IG USE ONLY                                                                      Page 2
    National Archives and Records Administration – Network Vulnerability Assessment and
                        Penetration Testing Report – September 2010



                           NARA External Scan Results
                               (# of vulnerability instances)
                     Low                       Critical
                      32                          5


                                                      High
                                                       72




                                      Medium
                                       224




As a result of our internal scan analysis, we noted a total of 5,880 vulnerability instances,
(identified as server and non-server weaknesses) comprised of (124) Critical, (291) High,
(2,049) Medium and (3,416) Low, some of which could be exploited by an intruder to
intentionally or accidentally gain access to NARA's network or systems. Details are graphically
portrayed below:




We made fourteen recommendations            which         are   detailed   within   the   Finding   and
Recommendation section below.




SENSITIVE/FOR IG USE ONLY                                                                       Page 3
    National Archives and Records Administration – Network Vulnerability Assessment and
                        Penetration Testing Report – September 2010


                     Objectives, Scope and Methodology
The overall objective was to perform external and internal network and penetration testing of the
NARA computer network systems in order to assess the chances that an intruder could
intentionally or accidentally gain access to NARA's network or systems.

To accomplish our objective, testing was conducted over the External and Internal network and
both sets of tests consisted of four phases:

           •	   Discovery (information gathering),
           •	   Vulnerability Analysis,
           •	   Exploitation and
           •	   Reporting

During the discovery phase, we attempted to obtain information about NARA’s network. To
obtain this information, we used public sources for external testing and network identification.
First, we tested for information available on the internet that is not under NARA’s control. We
gathered information that is publically available about NARA on the internet. We considered
searches for attempts at misuse of the NARA’s domain name (nara.gov) by non-authorized
parties. In addition, we performed searches on public search engines (e.g. Google). Our testing
efforts also included the following:

           •	 Social engineering efforts to access network services,
           •	 Sweeps of buildings to locate wireless access points,
           •	 Sweeps of external web servers,
           •	 Applications in common usage including e-mail and database applications,
           •	 Firewalls, routers and intrusion detection systems to include both Host Intrusion
              and Network intrusion detection systems, and
           •	 Modernization equipment including the infrastructure connectivity.

Secondly, we tested the network assets that are under the control of NARA. We gathered
information about NARA’s networks and analyzed the information to identify potential
vulnerabilities. We identified public services offered through NARA’s internet-facing servers.
Among these services are Electronic Mail and Web Servers. After our information gathering and
analysis, we tested the effectiveness of the protection of these public services and the servers
that host these processes. In addition, we identified versions of software and checked for known
vulnerabilities. In addition, we tested for programming flaws such that an attacker could use a
weakness to perform a series of steps, which could result in a compromise.

Thirdly, to determine whether noted medium to critical ranked vulnerabilities with a high number
of noted instances could be exploited, we attempted to compromise these vulnerabilities to take
advantage of on related assets.
 
To perform our social engineering efforts, we were provided with an acceptable use policy and
security awareness training material. Throughout the policy, the awareness training includes
instruction relating to the analysis of email, reminding the user to monitor the senders email
address and warning about visiting websites that are questionable.



SENSITIVE/FOR IG USE ONLY	                                                               Page 4
    National Archives and Records Administration – Network Vulnerability Assessment and

                        Penetration Testing Report – September 2010


During our wireless scanning efforts, the Archives II building was scanned for wireless network
access point detection. We implemented a packet capture assessment using the wireless
scanning tool          to identify wireless access points and any associated clients that have
authenticated to the access point. In addition,               identified the
                        .

Our approach to performing the network security testing was in accordance with NIST SP 800­
115 “Technical Guide to Information Security Testing and Assessment”, NARA Notice 2010­
045, NARA Penalty Guide (Personnel 300 – Appendix 752A), NARA’s Media Protection
Methodology and other applicable NARA Security Policies. We provided complete details of
tests to the Technical Point of Contact (TPOC) and OIG. We announced testing windows but
not specific dates and times for testing and reported testing progress to the TPOC and OIG.
During our overt testing activity, we monitored NARA’s response to our testing and we took no
measures to avoid detection. We conducted logical testing from the Internet and from inside the
NARA network. We additionally performed social engineering testing to determine if users would
open suspicious emails and click on potentially malicious links.

Our work was performed at                                   as well as
                          during September 2010. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.




SENSITIVE/FOR IG USE ONLY                                                              Page 5
     National Archives and Records Administration – Network Vulnerability Assessment and
                         Penetration Testing Report – September 2010


                       Findings and Recommendations
After we performed our scanning, we analyzed the results to validate potential vulnerabilities
found during the discovery phase. We found the following vulnerabilities that a hacker could
exploit to potentially compromise NARA’s network, and in several cases actually exploit to
obtain unauthorized access or escalation of user privileges:

Finding #1

Out of date software patches on several servers permit
             , and the ability to                                                                .

During internal network vulnerability scanning, we noted several remote network hosts running
versions of software such as
                                                             which are vulnerable to


Upon attempting to exploit those servers with                             , CG was able to
compromise two machines, resulting in complete system level access, which was not detected.

Note: Details of the affected machines with Internet Protocol (IP) addresses were provided to
(Office of Information Services) NH and the OIG within a separate document (spreadsheet,
entitled “NARA Analysis.xls”) due to the sensitivity of this data.

Criteria:

•	   National Institute of Standards and Technology Special Publication 800-53, revision
     3, Recommended Security Controls for Federal Information Systems and
     Organizations, August 2009

     SI-2 FLAW REMEDIATION
     Control: The organization:
        a.	 Identifies, reports, and corrects information system flaws;
        b.	 Tests software updates related to flaw remediation for effectiveness and potential
            side effects on organizational information systems before installation; and
        c.	 Incorporates flaw remediation into the organizational configuration management
            process.

     Supplemental Guidance: The organization identifies information systems containing
     software affected by recently announced software flaws (and potential vulnerabilities
     resulting from those flaws) and reports this information to designated organizational officials
     with information security responsibilities (e.g., senior information security officers,
     information system security managers, information systems security officers). The
     organization (including any contractor to the organization) promptly installs security-
     relevant software updates (e.g., patches, service packs, and hot fixes). Flaws discovered
     during security assessments, continuous monitoring, incident response activities, or
     information system error handling, are also addressed expeditiously. Organizations are
     encouraged to use resources such as the Common Weakness Enumeration (CWE) or
     Common Vulnerabilities and Exposures (CVE) databases in remediating flaws discovered

SENSITIVE/FOR IG USE ONLY	                                                                  Page 6
     National Archives and Records Administration – Network Vulnerability Assessment and

                         Penetration Testing Report – September 2010


     in organizational information systems. By requiring that flaw remediation be incorporated
     into the organizational configuration management process, it is the intent of this control that
     required/anticipated remediation actions are tracked and verified. An example of expected
     flaw remediation that would be so verified is whether the procedures contained in USCERT
     guidance and Information Assurance Vulnerability Alerts have been accomplished. Related
     controls: CA-2, CA-7, CM-3, MA-2, IR-4, RA-5, SA-11, SI-11.

     Control Enhancements:

     (1) The organization centrally manages the flaw remediation process and installs
     software updates automatically.

     Enhancement Supplemental Guidance: Due to information system integrity and availability
     concerns, organizations give careful consideration to the methodology used to carry out
     automatic updates.

     (2) The organization employs automated mechanisms [Assignment: organization-
     defined frequency] to determine the state of information system components with
     regard to flaw remediation.

     (3) The organization measures the time between flaw identification and flaw
     remediation, comparing with [Assignment: organization-defined benchmarks].

     (4) The organization employs automated patch management tools to facilitate flaw
     remediation to [Assignment: organization-defined information system components].

     References: NIST Special Publication 800-40.

•	   National Institute of Standards and Technology Special Publication 800-40, Version
     2, Creating a Patch and Vulnerability Management Program, November 2005

     6. Conclusions and Summary of Major Recommendations


     A summary of the primary recommendations is as follows:


       1. Create a patch and vulnerability group.

       2. Continuously monitor for vulnerabilities, remediation, and threats.

       3. Prioritize patch application and use phased deployments as appropriate.

       4. Test patches prior to deployment.

       5. Deploy enterprise-wide automated patching solutions.

       6. Use automatically updating applications as appropriate.

       7. Create an inventory of all information technology assets.

       8. Use standardized configurations for IT resources as much as possible.


SENSITIVE/FOR IG USE ONLY	                                                                  Page 7
    National Archives and Records Administration – Network Vulnerability Assessment and
                        Penetration Testing Report – September 2010

          9.	 Verify that vulnerabilities have been remediated.

      10.	 Consistently measure the effectiveness of the organization’s patch and vulnerability
           management program, and apply corrective actions as necessary.

      11.	 Train applicable staff on vulnerability monitoring and remediation techniques.

      12.	 Periodically test the effectiveness of the organization’s patch and vulnerability
           management program.

      13.	 Use U.S. government vulnerability mitigation resources as appropriate.

Cause:

The current software version in use has not been updated


Effect:

If an attacker is able to create                                , it could allow the execution of
arbitrary code on this host to take complete control of the affected system or to
                  .

Recommendation:

We recommend NARA management apply the appropriate hot fix referenced in the vendor
advisory on the affected machines.

Finding #2

Several weaknesses were noted related to outdated software

A summary of vulnerabilities noted were as follows:

    •	 A                    server is utilizing an
                                  that is affected by multiple flaws and vulnerabilities,
    •	                                            are for                or are
    •	 The                                                            is no longer supported by its
       vendor, and
    •	 Various                            weaknesses related to execution of code

                                            vulnerability were noted.

    •	 Additionally, a               server was prone to                  attacks.

During our external Public-facing asset testing, a website processing military records requests
was noted to employ a component with known                               vulnerabilities. CG was
able to perform                 and gain access to activated user information.

Note: Details of the affected machines with Internet Protocol (IP) addresses were provided to
NH and the OIG within a separate document (spreadsheet, entitled “NARA Analysis.xls”) due to
the sensitivity of this data.

SENSITIVE/FOR IG USE ONLY	                                                                  Page 8
     National Archives and Records Administration – Network Vulnerability Assessment and

                         Penetration Testing Report – September 2010


Criteria:

•	   National Institute of Standards and Technology Special Publication 800-53, revision
     3, Recommended Security Controls for Federal Information Systems and
     Organizations, August 2009

     SI-2 FLAW REMEDIATION
     Control: The organization:
        d.	 Identifies, reports, and corrects information system flaws;
        e.	 Tests software updates related to flaw remediation for effectiveness and potential
            side effects on organizational information systems before installation; and
        f.	 Incorporates flaw remediation into the organizational configuration management
            process.

     Supplemental Guidance: The organization identifies information systems containing
     software affected by recently announced software flaws (and potential vulnerabilities
     resulting from those flaws) and reports this information to designated organizational officials
     with information security responsibilities (e.g., senior information security officers,
     information system security managers, information systems security officers). The
     organization (including any contractor to the organization) promptly installs security-
     relevant software updates (e.g., patches, service packs, and hot fixes). Flaws discovered
     during security assessments, continuous monitoring, incident response activities, or
     information system error handling, are also addressed expeditiously. Organizations are
     encouraged to use resources such as the Common Weakness Enumeration (CWE) or
     Common Vulnerabilities and Exposures (CVE) databases in remediating flaws discovered
     in organizational information systems. By requiring that flaw remediation be incorporated
     into the organizational configuration management process, it is the intent of this control that
     required/anticipated remediation actions are tracked and verified. An example of expected
     flaw remediation that would be so verified is whether the procedures contained in USCERT
     guidance and Information Assurance Vulnerability Alerts have been accomplished. Related
     controls: CA-2, CA-7, CM-3, MA-2, IR-4, RA-5, SA-11, SI-11.

     Control Enhancements:

     (1) The organization centrally manages the flaw remediation process and installs
     software updates automatically.

     Enhancement Supplemental Guidance: Due to information system integrity and availability
     concerns, organizations give careful consideration to the methodology used to carry out
     automatic updates.

     (2) The organization employs automated mechanisms [Assignment: organization-
     defined frequency] to determine the state of information system components with
     regard to flaw remediation.

     (3) The organization measures the time between flaw identification and flaw
     remediation, comparing with [Assignment: organization-defined benchmarks].

     (4) The organization employs automated patch management tools to facilitate flaw
     remediation to [Assignment: organization-defined information system components].


SENSITIVE/FOR IG USE ONLY	                                                                  Page 9
     National Archives and Records Administration – Network Vulnerability Assessment and

                         Penetration Testing Report – September 2010


     References: NIST Special Publication 800-40.

•	   National Institute of Standards and Technology Special Publication 800-40, Version
     2, Creating a Patch and Vulnerability Management Program, November 2005

     6. Conclusions and Summary of Major Recommendations


     A summary of the primary recommendations is as follows:


         1. Create a patch and vulnerability group.

         2. Continuously monitor for vulnerabilities, remediation, and threats.

         3. Prioritize patch application and use phased deployments as appropriate.

         4. Test patches prior to deployment.

         5. Deploy enterprise-wide automated patching solutions.

         6. Use automatically updating applications as appropriate.

         7. Create an inventory of all information technology assets.

         8. Use standardized configurations for IT resources as much as possible.

         9. Verify that vulnerabilities have been remediated.

     10.	 Consistently measure the effectiveness of the organization’s patch and vulnerability
          management program, and apply corrective actions as necessary.

     11.    Train applicable staff on vulnerability monitoring and remediation techniques.

     12.	 Periodically test the effectiveness of the organization’s patch and vulnerability
          management program.

     13.    Use U.S. government vulnerability mitigation resources as appropriate.

Cause:

The current process to maintain                                          is not working effectively.

Effects:

•	 The                            could be exploited to perform                      attacks, insert
   arbitrary plaintext by                       , enable                    , denial of service, or
   bypass
•	 For the unsupported                        system, this means that no new security patches
   will be provided                whom is also unlikely to investigate or acknowledge reports of
   vulnerabilities in it.



SENSITIVE/FOR IG USE ONLY	                                                                 Page 10
     National Archives and Records Administration – Network Vulnerability Assessment and

                         Penetration Testing Report – September 2010


•	 If a                is running a web server that fails to adequately
                              an attack may be able to cause arbitrary
                          and            to be executed in a users’ browser within the security
     context of the affected site.

Recommendations:

We recommend NARA management implement the following corrective actions on the affected
machines: 1) Upgrade to                                 2) purchase or generate new
                                        , 3) upgrade to a different version of
           supported by its vendor, and 4) contact the vendor for a patch or upgrade to the


Finding #3

Several network security configuration weaknesses were noted.

Vulnerabilities identified which are categorized as configuration weaknesses are listed below:

     •    It is possible to access                                   with root privileges,
     •    Various                weaknesses were identified related to

                                                    and
     •            services support the use of weak                                    .
     •    The	                         is not password protected.

Upon attempting to exploit the                    vulnerability, we were able to access Oracle
database instances on two machines which were configured with
             The resulting compromise provided read access into system level databases to
include the users database. A listing of all users was possible. This
           testing concluded with no immediate responsive actions. If time were to permit, the
ability to compromise               using                                        could lead to
unauthorized access.

Additionally, we were able to gain access to several          . Based upon the permissions
gained, unauthorized configuration changes could be applied to those       In addition,
                   software was available to allow the unauthenticated user access to
documents

Note: Details of the affected        with Internet Protocol (IP) addresses were provided to
NH and the OIG within a separate document (spreadsheet, entitled “NARA Analysis.xls”) due to
the sensitivity of this data.

Criteria:

•	   National Institute of Standards and Technology Special Publication 800-53, revision
     3, Recommended Security Controls for Federal Information Systems and
     Organizations, August 2009




SENSITIVE/FOR IG USE ONLY	                                                                   Page 11
     National Archives and Records Administration – Network Vulnerability Assessment and

                         Penetration Testing Report – September 2010


     SI-2 FLAW REMEDIATION
     Control: The organization:
        g.	 Identifies, reports, and corrects information system flaws;
        h.	 Tests software updates related to flaw remediation for effectiveness and potential
            side effects on organizational information systems before installation; and
        i.	 Incorporates flaw remediation into the organizational configuration management
            process.

     Supplemental Guidance: The organization identifies information systems containing
     software affected by recently announced software flaws (and potential vulnerabilities
     resulting from those flaws) and reports this information to designated organizational officials
     with information security responsibilities (e.g., senior information security officers,
     information system security managers, information systems security officers). The
     organization (including any contractor to the organization) promptly installs security-
     relevant software updates (e.g., patches, service packs, and hot fixes). Flaws discovered
     during security assessments, continuous monitoring, incident response activities, or
     information system error handling, are also addressed expeditiously. Organizations are
     encouraged to use resources such as the Common Weakness Enumeration (CWE) or
     Common Vulnerabilities and Exposures (CVE) databases in remediating flaws discovered
     in organizational information systems. By requiring that flaw remediation be incorporated
     into the organizational configuration management process, it is the intent of this control that
     required/anticipated remediation actions are tracked and verified. An example of expected
     flaw remediation that would be so verified is whether the procedures contained in USCERT
     guidance and Information Assurance Vulnerability Alerts have been accomplished. Related
     controls: CA-2, CA-7, CM-3, MA-2, IR-4, RA-5, SA-11, SI-11.

     Control Enhancements:

     (1) The organization centrally manages the flaw remediation process and installs
     software updates automatically.

     Enhancement Supplemental Guidance: Due to information system integrity and availability
     concerns, organizations give careful consideration to the methodology used to carry out
     automatic updates.

     (2) The organization employs automated mechanisms [Assignment: organization-
     defined frequency] to determine the state of information system components with
     regard to flaw remediation.

     (3) The organization measures the time between flaw identification and flaw
     remediation, comparing with [Assignment: organization-defined benchmarks].

     (4) The organization employs automated patch management tools to facilitate flaw
     remediation to [Assignment: organization-defined information system components].

     References: NIST Special Publication 800-40.

•	   National Institute of Standards and Technology Special Publication 800-40, Version
     2, Creating a Patch and Vulnerability Management Program, November 2005



SENSITIVE/FOR IG USE ONLY	                                                                 Page 12
    National Archives and Records Administration – Network Vulnerability Assessment and
                        Penetration Testing Report – September 2010

    6. Conclusions and Summary of Major Recommendations

    A summary of the primary recommendations is as follows:

         1.	 Create a patch and vulnerability group.

         2.	 Continuously monitor for vulnerabilities, remediations, and threats.

         3.	 Prioritize patch application and use phased deployments as appropriate.

         4.	 Test patches prior to deployment.

         5.	 Deploy enterprise-wide automated patching solutions.

         6. Use automatically updating applications as appropriate.

         7.	 Create an inventory of all information technology assets.

         8.	 Use standardized configurations for IT resources as much as possible.

         9.	 Verify that vulnerabilities have been remediated.

         10. Consistently measure the effectiveness of the organization’s patch and vulnerability
             management program, and apply corrective actions as necessary.

         11. Train applicable staff on vulnerability monitoring and remediation techniques.

         12. Periodically test the effectiveness of the organization’s patch and vulnerability
             management program.

         13. Use U.S. government vulnerability mitigation resources as appropriate.

Cause:

These vulnerabilities were due to the deployment of                  and deployment of improperly
                           .

Effects:

•	 If                                   exported by the                  can be
                     an attacker may be able to leverage this to read (and possibly write) files on

•	 The                      weakness on the                   could allow an attacker to use this
   computer as a	                                                        In addition, this type of
          can be used to create a denial of service condition                     .
•	 The                                 provides an attacker information such as how often the
   system is being used, the names of the users, and more.
•	 If the               accepts connections with weak                                         and
   attacked may be able to conduct
   between the affected service and clients.

SENSITIVE/FOR IG USE ONLY	                                                                Page 13
     National Archives and Records Administration – Network Vulnerability Assessment and

                         Penetration Testing Report – September 2010


•	 If                is assigned to the                                   an attacker may use this
   fact to shut it down arbitrarily, thus preventing legitimate users from using it.

Recommendations:

We recommend NARA management implement the following corrective actions on the affected
machines: 1)                   on the remote host so that only authorized hosts can
                  2)	 disable the
                                             or upgrade to a more secure one, 3) consult the
application’s documentation to disable                                              4) disable
the                   service if not needed, and 5) use the
c          to assign

Finding #4

An Internet connection was identified which does not follow the same filtering and
acceptable use policy as other NARANet Internet connections.

Based upon our review of connectivity and the configuration of the NARANet into the
                                         we noted that network traffic flows only outbound from
NARA. This network connection is not direct and involves several intervening networks which
belong to                           . We determined that this internet connection is provided
through                              does not follow the same filtering and acceptable use policy
as the rest of the NARA network, but could permit NARA users the ability to access Internet
sites which are normally restricted by NARA’s web filters and potentially out of compliance with
NARA’s acceptable use policy.

Criteria:

•	   National Institute of Standards and Technology Special Publication 800-53, revision
     3, Recommended Security Controls for Federal Information Systems and
     Organizations, August 2009

     SI-3 MALICIOUS CODE PROTECTION
     Control: The organization:
        a.	 Employs malicious code protection mechanisms at information system entry and exit
            points and at workstations, servers, or mobile computing devices on the network to
            detect and eradicate malicious code:
            � Transported by electronic mail, electronic mail attachments, web accesses,
                removable
            � Media, or other common means; or
            � Inserted through the exploitation of information system vulnerabilities;
        b.	 Updates malicious code protection mechanisms (including signature definitions)
            whenever new releases are available in accordance with organizational configuration
            management policy and procedures;
        c.	 Configures malicious code protection mechanisms to:
            � Perform periodic scans of the information system [Assignment: organization-
                defined frequency] and real-time scans of files from external sources as the files
                are downloaded, opened, or executed in accordance with organizational security
                policy; and

SENSITIVE/FOR IG USE ONLY	                                                               Page 14
   National Archives and Records Administration – Network Vulnerability Assessment and
                       Penetration Testing Report – September 2010

         �  Selection (one or more): block malicious code; quarantine malicious code; send
            alert to administrator; [Assignment: organization-defined action]] in response to
            malicious code detection; and
     d.	 Addresses the receipt of false positives during malicious code detection and
         eradication and the resulting potential impact on the availability of the information
         system.

   Supplemental Guidance: Information system entry and exit points include, for example,
   firewalls, electronic mail servers, web servers, proxy servers, and remote-access servers.
   Malicious code includes, for example, viruses, worms, Trojan horses, and spyware.
   Malicious code can also be encoded in various formats (e.g., UUENCODE, Unicode) or
   contained within a compressed file. Removable media includes, for example, USB devices,
   diskettes, or compact disks. A variety of technologies and methods exist to limit or eliminate
   the effects of malicious code attacks. Pervasive configuration management and strong
   software integrity controls may be effective in circumventing execution of unauthorized
   code. In addition to commercial off-the-shelf software, malicious code may also be present
   in custom-built software. This could include, for example, logic bombs, back doors, and
   other types of cyber attacks that could affect organizational missions and business
   functions. Traditional malicious code protection mechanisms are not built to detect such
   code. In these situations, organizations must rely instead on other risk mitigation measures
   to include, for example, secure coding practices, trusted procurement processes,
   configuration management and control, and monitoring practices to help ensure that
   software does not perform functions other than those intended. Related controls: SA-4, SA­
   8, SA-12, SA-13, SI-4, SI-7.

   Control Enhancements:

   (1) The organization centrally manages malicious code protection mechanisms.

   (2) The information system automatically updates malicious code protection
   mechanisms (including signature definitions).

   (3) The information system prevents non-privileged users from circumventing
   malicious code protection capabilities.

   (4) The information system updates malicious code protection mechanisms only
   when directed by a privileged user.

   (5) The organization does not allow users to introduce removable media into the
   information system.

   (6) The organization tests malicious code protection mechanisms [Assignment:
   organization-defined frequency] by introducing a known benign, non-spreading test
   case into the information system and subsequently verifying that both detection of
   the test case and associated incident reporting occur, as required.

   References: NIST Special Publication 800-83.




SENSITIVE/FOR IG USE ONLY	                                                              Page 15
     National Archives and Records Administration – Network Vulnerability Assessment and

                         Penetration Testing Report – September 2010


Cause:

Network configuration standards for Internet connectivity have not been consistently applied.

Effect:

This weakness could permit NARA users the ability to access Internet sites with inappropriate
content.

Recommendation:

We recommend NH management reconfigure the security of this Internet connection
      to ensure users are required to comply with NARA’s acceptable use policy.

Finding #5

Users were noted clicking on potentially malicious links within emails from an unknown
suspicious source.

Based upon security awareness training provided to all individuals with a NARANet account,
users are instructed not to accept or click on links within emails of unknown or suspicious origin.
To test the effectiveness of this particular portion of their training, we sent an email from an
unknown external user                                to 90 haphazardly selected NARA individuals
containing a potentially malicious link, and noted a total of 18% of targeted users actually
clicked on these links within the 1st 24 hours. This link was connected to an unrecognizable web
server with a redirection to yet another web server. If this link actually was malicious, users
could have been infected with a variety of viruses or permit the installation of unauthorized or
malicious software on their machines. Also, of the total population tested, 5 (of 6 total) users are
located                     clicked on the link. Email filtering successfully restricted attempts to
perform this test for the first 4 – 6 hours, but then was successful with


Criteria:

Per the NARA Information Systems Security and PII Awareness training material, page 29
Threats: Spam

What is it?

Spam is the abuse of e-mail messaging systems by sending unsolicited bulk messages
indiscriminately. Most spam e-mails tend to promote a commercial service or product. Spam is
also known as junk e-mail.

How can it harm?

Some spam messages contain viruses or links to malicious websites. Spam can also be used to
cause denial of service attacks.

What can I do?



SENSITIVE/FOR IG USE ONLY                                                                  Page 16
    National Archives and Records Administration – Network Vulnerability Assessment and
                        Penetration Testing Report – September 2010

Delete the e-mail without opening it.

Cause:

Users are not following the NARA security awareness training requirement to ensure the safety
and security of the NARANet and NARA systems and data in regards to email usage.

Effect:

As users were directed to a malicious site this could have infected/compromised their computer
with a variety of viruses or permit the installation of unauthorized or malicious software on their
machines, which could be used as a launching point to infect/compromise other computers
within the NARA network.

Recommendation:

We recommend NARA management reinforce the component related to email usage in their
security awareness training material provided to NARA system users.

Finding #6

Our internal and external NARA network vulnerability assessments identified a large
number of vulnerabilities, including many designated “critical” and “high.”

As a result of our vulnerability assessment of the NARA network during September 2010, we
noted a total of 5,880 vulnerability instances, comprised of 124 Critical, 291 High, 2,049 Medium
and 3,416 Low. The “critical” vulnerability instances represent 12 unique vulnerabilities as
follows:
     • External Network
           o                         are no longer supported by the Vendor
     • Internal Network
           o An unpatched flaw in the '                     .
           o An unpatched flaw in the                             .
           o An unpatched flaw in the                       .
           o It is possible to bypass authentication with
           o An                                    allows execution of arbitrary code.
           o The                          has a backdoor.

           o
 An unpatched application that is affected by a
           o The                                 is not supported by its vendor any more.
           o The                    uses default credentials.
           o                 have multiple vulnerabilities resulting in                  .
           o The                          is protected using a known set of credentials.

The “high” vulnerability instances represent 15 unique vulnerabilities as follows:
   • External Network
           o                 is running on the server.
               � This finding resulted from the



SENSITIVE/FOR IG USE ONLY                                                                 Page 17
     National Archives and Records Administration – Network Vulnerability Assessment and

                         Penetration Testing Report – September 2010


            o                using outdated versions of             affected by multiple flaws.
     •	 Internal Network
            o	 An unpatched flaw in
            o	 An unpatched flaw in
            o	 Multiple               are available without having root privileges.
            o	 The                                                      can be guessed.
            o	 An unpatched                        is affected by multiple vulnerabilities.
            o	 The                        is vulnerable to a                      attack.
            o	 An unpatched application is affected by a
            o	 The                  has no
            o	 The                   is protected with                      .
            o	 The                         is vulnerable to memory corruption flaws resulting in
                denial of service.
            o	 The                         does not                                            allowing
                undetected password guessing.
            o	 The                        allows unauthenticated access to an
                       .
            o	 The                        is vulnerable to a                            attack through a
                                    vulnerability.

Note: Details of the affected machines with Internet Protocol (IP) addresses were provided to
NH and the OIG within a separate document (spreadsheet, entitled “NARA Analysis.xls”) due to
the sensitivity of this data.

Criteria:

•	    National Institute of Standards and Technology Special Publication 800-53, revision
      3, Recommended Security Controls for Federal Information Systems and
      Organizations, August 2009

      SI-2 FLAW REMEDIATION
      Control: The organization:
         a.	 Identifies, reports, and corrects information system flaws;
         b.	 Tests software updates related to flaw remediation for effectiveness and potential
             side effects on organizational information systems before installation; and
         c.	 Incorporates flaw remediation into the organizational configuration management
             process.

      Supplemental Guidance: The organization identifies information systems containing
      software affected by recently announced software flaws (and potential vulnerabilities
      resulting from those flaws) and reports this information to designated organizational officials
      with information security responsibilities (e.g., senior information security officers,
      information system security managers, information systems security officers). The
      organization (including any contractor to the organization) promptly installs security-
      relevant software updates (e.g., patches, service packs, and hot fixes). Flaws discovered
      during security assessments, continuous monitoring, incident response activities, or
      information system error handling, are also addressed expeditiously. Organizations are
      encouraged to use resources such as the Common Weakness Enumeration (CWE) or

SENSITIVE/FOR IG USE ONLY	                                                                     Page 18
     National Archives and Records Administration – Network Vulnerability Assessment and

                         Penetration Testing Report – September 2010


     Common Vulnerabilities and Exposures (CVE) databases in remediating flaws discovered
     in organizational information systems. By requiring that flaw remediation be incorporated
     into the organizational configuration management process, it is the intent of this control that
     required/anticipated remediation actions are tracked and verified. An example of expected
     flaw remediation that would be so verified is whether the procedures contained in USCERT
     guidance and Information Assurance Vulnerability Alerts have been accomplished. Related
     controls: CA-2, CA-7, CM-3, MA-2, IR-4, RA-5, SA-11, SI-11.

     Control Enhancements:

     (1) The organization centrally manages the flaw remediation process and installs
     software updates automatically.

     Enhancement Supplemental Guidance: Due to information system integrity and availability
     concerns, organizations give careful consideration to the methodology used to carry out
     automatic updates.

     (2) The organization employs automated mechanisms [Assignment: organization-
     defined frequency] to determine the state of information system components with
     regard to flaw remediation.

     (3) The organization measures the time between flaw identification and flaw
     remediation, comparing with [Assignment: organization-defined benchmarks].

     (4) The organization employs automated patch management tools to facilitate flaw
     remediation to [Assignment: organization-defined information system components].

     References: NIST Special Publication 800-40.

•	   National Institute of Standards and Technology Special Publication 800-40, Version
     2, Creating a Patch and Vulnerability Management Program, November 2005

     6. Conclusions and Summary of Major Recommendations


     A summary of the primary recommendations is as follows:


       1. Create a patch and vulnerability group.

       2. Continuously monitor for vulnerabilities, remediations, and threats.

       3. Prioritize patch application and use phased deployments as appropriate.

       4. Test patches prior to deployment.

       5. Deploy enterprise-wide automated patching solutions.

       6. Use automatically updating applications as appropriate.

       7. Create an inventory of all information technology assets.



SENSITIVE/FOR IG USE ONLY	                                                                 Page 19
    National Archives and Records Administration – Network Vulnerability Assessment and

                        Penetration Testing Report – September 2010


          8. Use standardized configurations for IT resources as much as possible.

          9. Verify that vulnerabilities have been remediated.

      10.	 Consistently measure the effectiveness of the organization’s patch and vulnerability
           management program, and apply corrective actions as necessary.

      11.	 Train applicable staff on vulnerability monitoring and remediation techniques.

      12.	 Periodically test the effectiveness of the organization’s patch and vulnerability
           management program.

      13.    Use U.S. government vulnerability mitigation resources as appropriate.

Cause:

                                                 were not applied timely and
                 could have been more secure.

Effect:

If vulnerabilities with a greater potential impact to information systems are exploited,
unauthorized individuals could potentially gain inappropriate access to systems and data.


Recommendations:


We recommend NARA management 1) immediately address corrective action for all

vulnerabilities identified as “high” and “critical” risk, and 2) evaluate the identified risks and
corrective actions to address those identified as “medium” and “low” risk vulnerabilities.




SENSITIVE/FOR IG USE ONLY	                                                              Page 20
